No. 20-

IN THE SUPREME COURT OF THE UNITED STATES
THE STATE BAR OF CALIFORNIA, ET AL.,
Petitioners,
v.
LENORE ALBERT,
Respondent.
On Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
APPENDIX TO PETITION FOR WRIT OF CERTIORARI

VANESSA L. HOLTON, Esq., State Bar No. 111613
ROBERT G. RETANA, Esq., State Bar No. 148677
SUZANNE C. GRANDT, State Bar No. 304794
OFFICE OF GENERAL COUNSEL
THE STATE BAR OF CALIFORNIA
180 Howard Street
San Francisco, California 94105
Telephone: (415) 538-2388
Facsimile: (415) 538-2321
Suzanne.Grandt@calbar.ca.gov

Counsel for Petitioners
The State Bar of California, et al.

ia
APPENDIX INDEX
Page

Opinion by Ninth Circuit Court of Appeals,
filed June 10, 2020

1a

Order of the Bankruptcy Appellate Court,
filed April 11, 2019

16a

Order of the Bankruptcy Court of the Central
District of California, Dated August 9, 2018

38a

Order of the Bankruptcy Court of the Central
District of California, Dated August 9, 2018

45a

Order Denying Petition for Rehearing En Banc,
dated July 17, 2020
48a
Order Granting Petitioners’ Motion to Stay
Mandate, Dated July 29, 2020

49a

1a
960 F.3d 1188
United States Court of Appeals,
Ninth Circuit.
IN RE Lenore L. ALBERTSHERIDAN, Debtor,
Lenore L. Albert-Sheridan,
DBA Law Offices of Lenore
Albert, Appellant, v.
State Bar of
California;
Maricruz
Farfan;
Brandon Tady;
Alex Hackert;
Yvette Roland;
Paul
Bernardino,
Appellees.
No. 19-60023
|
Submitted March 30, 2020*
Pasadena, California
|
Filed June 10, 2020

2a
Attorneys and Law Firms
*1190 Lenore L. Albert, Westminster, California, pro
se Appellant.
Vanessa L. Holton, Robert G. Retana, and Suzanne
C. Grandt, Office of General Counsel, State Bar of
California, San Francisco, California, for Appellees.
Appeal from the Ninth Circuit Bankruptcy Appellate
Panel, Lafferty III, Spraker, and Faris, Bankruptcy
Judges, Presiding, BAP No. 18-1222No. 18-1222
Before: Richard A. Paez, Consuelo M. Callahan, and
Patrick J. Bumatay, Circuit Judges.
OPINION
BUMATAY, Circuit Judge:
The State Bar of California suspended one of its
members for misconduct. It conditioned her
reinstatement on the payment of court-ordered
discovery sanctions and costs associated with its
disciplinary proceedings. Rather than pay the two
fees, the suspended attorney sought to discharge
them in bankruptcy.
We consider whether the Bankruptcy Code permits
this. The bankruptcy court and the Ninth Circuit
Bankruptcy Appellate Panel (“BAP”) held that the
two fees were non-dischargeable debts. We disagree.
While our precedent holds that the costs of the
disciplinary proceedings may not be discharged, the
plain text of the Code requires a contrary result for
the discovery sanctions. For this reason, we affirm in
part and reverse in part.
I. BACKGROUND
A.

Discovery

Sanctions

and

State

Bar

3a
Proceedings
Until her suspension, Lenore Albert-Sheridan had
practiced as an attorney in California since December
2000 with no disciplinary record. She served as a
consumer-advocate attorney, often representing
homeowners in residential housing and mortgage
disputes. By her own account, Albert stopped over
1,000 foreclosure sales in one case alone.
Beginning in May 2012, Albert represented Norman
and Helen Koshak in an unlawful detainer matter in
California Superior Court. In that case, plaintiffs
10675 S. Orange Park Boulevard, LLC, Francis
Lantieri, and Gary Schneider (“Orange Park
Boulevard”) commenced an action to evict the
Koshaks from their property. In August 2012,
Orange Park Boulevard filed three motions to compel
Helen Koshak's response to several discovery
requests. In each motion, Orange Park Boulevard
also sought costs and fees against Koshak and Albert
for misuse of the discovery process under California
Code of Civil Procedure
§ 2023.030.
After a hearing, a California Superior Court
commissioner granted the discovery motions and
imposed sanctions against Helen Koshak and her
“counsel-of-record, Lenore Albert” in three separate
orders. The commissioner ordered that they pay
“monetary sanctions” of $2,675.50, $1,242.50, and
$1,820.00 (totaling $5,738) to “Plaintiff 10675 S
Orange Park Boulevard, LLC,” jointly and severally
within 30 days. To date, these discovery sanctions
have not been paid.
*1191 In early 2015, the State Bar received a
complaint against Albert and initiated an
investigation. By July 2015, the State Bar requested
documents and written responses from Albert. Albert
failed to comply with the inquiry and instead
requested an extension to the “eternity of time” while

4a
accusing the State Bar of wrongdoing.
The following year, the State Bar began disciplinary
proceedings and charged Albert with, as relevant
here, failing to cooperate with its investigation and
disobeying the court orders to pay Orange Park
Boulevard the discovery sanctions. After a State Bar
trial, the hearing officer found Albert culpable on
both counts. The hearing officer recommended a 30day suspension of Albert's law license with
reinstatement conditioned on her payment of the
discovery sanctions. The hearing officer also awarded
$18,714 to the State Bar in “reasonable costs” for the
disciplinary proceedings under California Business
and Professions Code § 6086.10(b)(3). The costs
included a pre-set base charge of $16,758 plus $1,956
for investigations. California law requires the
payment of disciplinary costs as a prerequisite for
Bar reinstatement. Cal. Bus. & Prof. Code § 6140.7.
On appeal, the State Bar Review Department
affirmed Albert's culpability on the two charges, her
suspension, and the imposition of the disciplinary
proceedings’ costs.
In December 2017, the California Supreme Court
entered a final order of discipline. The supreme court
ordered Albert suspended for 30 days, to be
continued until:
She pays the following sanctions (or reimburses the
Client Security Fund, to the extent of any payment
from the Fund to the payees ...), and furnishes proof
to the State Bar ... the $2,675.50, $1,242.50, and
$1,820 sanctions awards issued on August 31, 2012,
by the Superior Court of Orange County ... plus 10
percent interest per year from August 31, 2012.
In re Albert on Discipline, No. S243927, 2017 Cal.
LEXIS 9745 at *1 (Cal. Dec. 13, 2017). It also
awarded the costs of the disciplinary proceedings to
the State Bar. Id. at *3. The supreme court later

5a
denied Albert's petition for rehearing. To date, Albert
has not paid the disciplinary proceeding costs.
B.
Bankruptcy Proceedings
In February 2018, Albert filed for Chapter 13
bankruptcy. The bankruptcy court later converted
Albert's case to Chapter 7 based on her inability to
fund a confirmable Chapter 13 plan.
In April 2018, Albert filed an adversarial complaint
in bankruptcy court against the State Bar and
several of its employees. In her complaint, Albert
alleged (1) the dischargeability of debts under 11
U.S.C. § 523(a)(7); (2) the violation of 11 U.S.C. §
525(a)’s anti-discrimination provision; (3) the
violation of her rights under 42 U.S.C. § 1983; (4) the
violation of California's Rosenthal Fair Debt
Collection Practices Act and the federal Fair Debt
Collection Practices Act; and (5) the claim that
California Business and Professions Code §§ 6103,
6086.10, and 6140.7 are unconstitutional.1
Four months later, the bankruptcy court granted the
State Bar's motion to dismiss the complaint. The
bankruptcy court held that both the discovery
sanctions and disciplinary costs were nondischargeable based on In re Findley, 593 F.3d 1048
(9th Cir. 2010). The bankruptcy court also dismissed
*1192 the § 525(a) claim because the State Bar
could predicate Albert's reinstatement on the
payment of non-dischargeable debts. Albert filed a
timely notice of appeal to the BAP, which affirmed on
largely the same grounds. In re Albert-Sheridan, No.
8:18-AP-01065-SC, 2019 WL 1594012 (B.A.P. 9th Cir.
Apr. 11, 2019).
[1] Before us is Albert's appeal from the BAP's
decision. We have jurisdiction under 28 U.S.C. §
158(d)(1) and review de novo the BAP's decision and
the bankruptcy court's dismissal of Albert's

6a
complaint for failure to state a claim. In re Turner,
859 F.3d 1145, 1148 (9th Cir. 2017).
II. DISCUSSION A.
[2] A Chapter 7 discharge “releases the debtor from
personal liability for her pre-bankruptcy debts.” In
re Ybarra, 424 F.3d 1018, 1022 (9th Cir. 2005). A
debtor is entitled to a discharge of all pre-petition
debts except for nineteen categories of debts set
forth in the Code. 11 U.S.C. §§ 727(b), 523(a). One of
the exceptions makes non-dischargeable a debt “for a
fine, penalty, or forfeiture payable to and for the
benefit of a governmental unit, and is not
compensation for actual pecuniary loss.” 11
U.S.C. § 523(a)(7).
In this case, Albert seeks the discharge of two debts:
(1) the $18,714 assessed against her for the costs of
the State Bar's disciplinary proceedings, and (2) the
$5,738 in discovery sanctions ordered by a California
superior court. We consider § 523(a)(7)’s application
to each debt in turn.
[3]
Our court has already addressed whether a
debtor may discharge the costs of the State Bar's
attorney disciplinary proceedings imposed under
California Business and Professions Code § 6086.10.
The clear answer is no. In Findley, we held that the
costs of State Bar attorney disciplinary proceedings
are non-dischargeable based on their punitive and
rehabilitative nature. 593 F.3d at 1049, 1052–54.
Like here, the attorney in that case was assessed a
standard, preset charge and the actual costs of the
proceedings. Id. at 1049. California law classifies
these costs as “penalties, payable to and for the
benefit of the State Bar of California, a public
corporation created pursuant to Article VI of the
California Constitution,to promote rehabilitation and
to protect the public.” Cal. Bus. & Prof. Code §
6086.10(e).

7a
The
Findley court concluded that California's
classification of the costs was sufficient to render
them non-dischargeable under § 523(a)(7). 593 F.3d
at 1054. We determined that the § 6086.10 costs
were not compensatory to the State Bar but rather
“disciplinary costs” imposed only for “misconduct that
merits public reproval, suspension or disbarment.”
Id. We thus agreed that the costs were “not
compensation for actual pecuniary loss” under §
523(a)(7). Id.

Findley stands on all fours with this case. Because
Findley ruled that attorney disciplinary costs under
§ 6086.10 are excepted from discharge, Albert's
$18,714 debt to the State Bar is non-dischargeable.

[4] Albert argues that Findley was wrongly decided
given that disciplinary proceeding costs are based on
the amount of time the State Bar expends, not on the
attorney's underlying conduct—which fits more with
compensation rather than punishment. Albert asks
us to overrule Findley for this reason. This is a nonstarter.
Findley is binding precedent on this
question, and we must follow it. See Koerner v.
Grigas, 328 F.3d 1039, 1050 (9th Cir. 2003) (“[I]n the
absence of intervening Supreme Court precedent, one
panel cannot overturn another panel, regardless of
how wrong the earlier panel decision may seem
to be.”) (quoting Hart v. Massanari, 266 F.3d 1155,
1171–72 (9th Cir. 2001).)2
[5] Unlike attorney disciplinary proceeding costs, the
dischargeability of discovery sanctions under
California Code of Civil Procedure § 2023.030 is a
matter of first impression in this court. As is often
the case, “the plain language of the Bankruptcy
Code disposes of the question before us.” Toibb v.
Radloff, 501 U.S. 157, 160, 111 S.Ct. 2197, 115
L.Ed.2d 145 (1991).

8a
Section 523(a)(7) expressly requires three elements
for a debt to be non-dischargeable. The debt must (1)
be a fine, penalty, or forfeiture; (2) be payable to and
for the benefit of a governmental unit; and (3) not
constitute compensation for actual pecuniary costs.
11 U.S.C. § 523(a)(7). Here, the discovery sanctions
plainly do not satisfy the last two of these elements
and, thus, are not excepted from discharge.3
California law authorizes the award of “sanctions” for
the “misuse of the discovery process.” Cal. Civ. Proc.
Code § 2023.030(a). A “court may impose a monetary
sanction ordering that one engaging in the misuse of
the discovery process, or any attorney advising that
conduct, or both pay the reasonable expenses,
including attorney's fees, incurred by anyone as a
result of that conduct.” Id.
By its terms, the law does not provide for the
sanctions to be paid to the court or any other
governmental entity, but to “anyone” incurring an
expense as a result of discovery abuse. See Parker v.
Wolters Kluwer United States, Inc., 149 Cal. App.
4th 285, 300, 57 Cal.Rptr.3d 18 (2007) (“On its face
section 2023.030 appears to say monetary sanctions
and issue sanctions can only be imposed in favor of a
party who has suffered harm as the result of the
sanctioned party's misuse of the discovery
process[.]”).
Here, Albert was ordered to pay the discovery
sanctions to “Plaintiff 10675 S. Orange Park
Boulevard, LLC.” Orange Park Boulevard is not a
governmental unit, nor was the sanction for the
benefit of a governmental unit. See Siry Inv., L.P. v.
Farkhondehpour, 45 Cal. App. 5th 1098, 1117, 259
Cal.Rptr.3d 466 (2020) (explaining that “discovery
sanctions ... protect the interests of the party entitled
to, but denied, discovery, not to punish the noncompliant party”) (simplified). Accordingly, the
discovery sanctions are not payable to or for the

9a
benefit of a governmental unit.
The State Bar confirmed this understanding in
proceedings before the bankruptcy court.
THE COURT: [I]f Ms. Albert won the lottery
tomorrow ... who would she write the check to for the
discovery sanctions?
MS. GRANDT: So as of now, it would be written to
that third party – let me get their names. They're
Francis Lantieri, Gray [sic] Schneider, and 10675
South Orange Park Boulevard.
THE COURT: Okay. And the discovery sanctions
would be written to a third party, not to the State of
California, not to the State Bar, to a third party?
*1194 MS. GRANDT: Correct.
Bankr. Ct. Hr'g Tr. 31, Aug. 31, 2018.
Furthermore, the discovery sanctions also constitute
“compensation for actual pecuniary costs.” 11 U.S.C.
§ 523(a)(7). The sanctions are only available to “pay
the reasonable expenses, including attorney's fees,
incurred.” Cal. Civ. Proc. Code § 2023.030(a). Thus,
the discovery sanctions enforce compliance with
discovery procedures by “assessing the costs of
compelling compliance against the defaulting party.”
Pratt v. Union Pac. R.R. Co., 168 Cal. App. 4th 165,
183, 85 Cal.Rptr.3d 321 (2008) (simplified). Here, the
California superior court ordered the sanctions to
reflect the costs Orange Park Boulevard incurred
responding to Koshak and Albert's misuse of the
discovery process. Accordingly, the discovery
sanctions were commensurate with Orange Park
Boulevard's expenses to litigate the discovery
motions against Albert's former client and, thus,
were “compensatory.”4
Under the plain text of

§ 523(a)(7), the discovery

10a
sanctions are not the type of debt protected from
discharge. Accordingly, we reverse the BAP's finding
that Albert's discovery sanctions are nondischargeable under Chapter 7.5
In finding the discovery fees dischargeable, the BAP
relied on its understanding of the Supreme Court's
decision in Kelly v. Robinson, 479 U.S. 36, 107 S.Ct.
353, 93 L.Ed.2d 216 (1986). The BAP ruled that,
“notwithstanding the statutory language” of §
523(a)(7), the dischargeability of a debt “turns on the
purpose of the restitution award rather than the
ultimate recipient of funds.” In re Albert-Sheridan,
2019 WL 1594012, at *4 (citing Kelly, 479 U.S. at
52–53, 107 S.Ct. 353). The BAP then reasoned that
since the California Supreme Court ordered the
payment of the discovery sanctions, “they were
transformed into a primarily punitive sanction that
was nondischargeable under § 523(a)(7), despite the
fact that the sanctions are payable to the affected
parties rather than the State Bar.” Id. at *6. We
disagree that Kelly has such a broad reach.
In Kelly, the Supreme Court held that criminal
restitution paid to a state agency as a condition of
probation was non- dischargeable under § 523(a)(7).
479 U.S. at 50, 107 S.Ct. 353. There, the defendant
was ordered to pay restitution to the State of
Connecticut's probation office, which then forwarded
the payments to the victim. Id. at 39–40, 107 S.Ct.
353. The defendant filed for Chapter 7 bankruptcy
and sought discharge of the restitution obligation.
Id. at 39, 107 S.Ct. 353. Based on its “deep conviction
that federal bankruptcy courts should not invalidate
the results of state criminal proceedings,” the Court
held that § 523(a)(7) prevents the discharge of
restitution despite it not being for the benefit of a
governmental unit. Id. at 47, 50, 107 S.Ct. 353. The
Court observed that § 523 was enacted against the
“background of an established judicial exception to
discharge
for
criminal
sentences,
including

11a
restitution orders[.]”
Id. at 46, 107 S.Ct. 353.
Although restitution “resemble[s]” a judgment for the
benefit of a victim, the Court reasoned that such a
payment really benefits “society as a whole.” Id. at
52, 107 S.Ct. 353. Furthermore, since a criminal
sentence “necessarily considers the penal and
rehabilitative interests of the State,” the Court held
that restitution orders are sufficiently within the
meaning of § 523(a)(7). Id. at 53, 107 S.Ct. 353.
Given that Kelly was based on a “deep conviction”
rather than statutory language, we have raised
concerns that it has “led to considerable confusion
among federal courts and practitioners about section
523(a)(7)’s scope.” In re Scheer, 819 F.3d 1206, 1210
(9th Cir. 2016) (collecting cases). We further
compared
Kelly’s approach of “untether[ing]
statutory interpretation from the statutory language”
to a “relic[ ] of the 1980s.” Id. Like other relics of the
1980s, such as big hair, jam shorts, and acid-wash
jeans, Kelly’s atextual interpretative method should
not come back into fashion. Thus, we have sought to
cabin Kelly’s reach and refused to expand its
rationale to an arbitration award requiring an
attorney to refund a client's funds. Id. at 1211. We
have also declined to extend Kelly to except criminal
restitution payments under the Code's preference
statute, 11 U.S.C. § 547(b). In re Silverman, 616 F.3d
1001, 1007–08 (9th Cir. 2010).
Thus, Kelly does not alter the outcome required by
the text of § 523(a)(7) in this case. Kelly was
animated by a “long history” of judicial exceptions for
criminal restitution payments in discharge statutes
and a concern for “disturb[ing] state criminal
proceedings.” Id. at 1007. These rationales do not
apply to the discharge of discovery sanctions at issue
here. Although the California Supreme Court
conditioned Albert's reinstatement on payment of the
sanctions in its order of discipline, Albert's debt
compensates a private party for the costs of litigating

12a
civil discovery motions for its own benefit. Nothing in
these circumstances would cause us to depart from
the plain language of the Code.
[6]
[7]
[8] Indeed, the Supreme Court has
consistently reminded us of our duty to follow the law
as enacted by Congress, not as judged by our
convictions. See Hardt v. Reliance Standard Life Ins.
Co., 560 U.S. 242, 251, 130 S.Ct. 2149, 176 L.Ed.2d
998 (2010) (“We must enforce plain and unambiguous
statutory language according to its terms.”); Pavelic
& LeFlore v. Marvel Entm't Grp., 493 U.S. 120, 126,
110 S.Ct. 456, 107 L.Ed.2d 438 (1989) (“Our task is to
apply the text, not to improve upon it.”). This
command does not change when the matter involves
bankruptcy. “[W]hatever equitable powers remain in
the bankruptcy courts must and can only be
exercised within the confines of the Bankruptcy
Code.” Norwest Bank Worthington v. Ahlers, 485
U.S. 197, 206, 108 S.Ct. 963, 99 L.Ed.2d 169 (1988).
Accordingly, when it comes to interpreting the Code,
we are not at liberty to “alter the balance struck by
the statute.” Czyzewski v. Jevic Holding Corp., –––
U.S. ––––, 137 S. Ct. 973, 987, 197 L.Ed.2d 398
(2017) (simplified). Accordingly, we are bound to
follow the plain meaning of § 523(a)(7) here. For
these reasons, we hold that discovery sanctions
imposed under *1196 California Code of Civil
Procedure § 2023.030(a) are dischargeable under §
727(b).6
B.
Finally, Albert contends that the State Bar violated
11 U.S.C. § 525(a) by failing to reinstate her law
license because of her nonpayment of dischargeable
debts.
[9]
Section 525(a) prohibits a governmental unit
from “deny[ing], revok[ing], suspend[ing], or

13a
refus[ing] to renew” a debtor's license “solely
because” the debtor filed for bankruptcy or failed to
pay a dischargeable debt.
11 U.S.C. § 525(a).
Although the provision prevents discrimination
against a debtor based on a dischargeable debt, the
inverse is also true: “The
government may take action that is otherwise
forbidden when the debt in question is one of the
disfavored class that is nondischargeable.” FCC v.
NextWave Pers. Commc'ns Inc., 537 U.S. 293, 307,
123 S.Ct. 832, 154 L.Ed.2d 863 (2003) (emphasis in
original).
[10] As stated above, the costs of the State Bar's
disciplinary proceedings are non-dischargeable under
§ 523(a)(7) and Findley. Accordingly, the State Bar is
within its right to condition reinstatement on the
payment of that debt. Id. We affirm the dismissal of
this claim.7
***
For the foregoing reasons, we affirm the BAP in part
and reverse in part and remand in light of this
opinion. Each party shall bear its own costs on
appeal. See Fed. R. App. P. 39(a)(4).
AFFIRMED in
REMANDED.

part;

REVERSED

in

part;

All Citations
960 F.3d 1188, 68 Bankr.Ct.Dec. 217, Bankr. L. Rep.
P 83,534, 20 Cal. Daily Op. Serv. 5503, 2020 Daily
Journal D.A.R. 5501
Footnotes
*
The panel unanimously concludes this case is

14a
suitable for decision without oral argument. See Fed.
R. App. P. 34(a)(2).
1
In a separate memorandum, we affirm the
dismissal of Albert's non-bankruptcy claims and deny
her leave to amend her complaint.
2
To the extent Albert seeks initial en banc
review of this matter, she failed to comply with
Federal Rule of Appellate Procedure 35(c), and we
deny her request.
3
Because the discovery sanctions do not meet
the governmental unit or non-compensatory
elements, we need not address whether they are also
fines, penalties, or forfeitures under the Code.
4
Although § 2023.030(a)’s text is sufficient to
prove its compensatory nature, to the extent our
precedent compels a peek behind its legislative
purpose, we are satisfied of its pecuniary aim. In
contrast to the penal and rehabilitative ends of
attorney disciplinary proceedings costs, see Findley,
593 F.3d at 1054, the discovery sanctions are not
meant to “provide a weapon for punishment, ... but to
prevent abuse of the discovery process and correct
the problem presented,” Parker, 149 Cal. App. 4th at
301, 57 Cal.Rptr.3d 18.
5
The California Supreme Court alternatively
ordered Albert to reimburse the State Bar's Client
Security Fund, “to the extent of any payment from
the Fund to the payees, in accordance with section
6140.5.” In re Albert on Discipline, 2017 Cal. LEXIS
9745, at *1. The State Bar established a Client
Security Fund to relieve or mitigate pecuniary losses
caused by an attorney's dishonest conduct. Cal. Bus.
& Prof. Code § 6140.5(a). Some courts have
considered reimbursements to the Client Security
Fund to be payable to the government. See In re
Phillips, 2010 WL 4916633, at *5 (C.D. Cal. Dec. 1,
2010); Brookman v. State Bar, 46 Cal.3d 1004, 251
Cal.Rptr. 495, 760 P.2d 1023 (1988). Nevertheless,
the record does not show that any Client Security
Fund payments were disbursed to Orange Park
Boulevard in this case. Accordingly, that issue is not

15a
before us.
6
Albert also claims that the superior court
orders awarding the discovery sanctions to Orange
Park Boulevard were invalid because they were
procedurally deficient under California Code of Civil
Procedure § 2023.040. Albert waived this argument
by failing to present it to the bankruptcy court. See
In re E.R. Fegert, Inc., 887 F.2d 955, 957 (9th Cir.
1989) (“The rule in this circuit is that appellate
courts will not consider arguments that are not
properly raised in the trial courts.”) (simplified).
7
Albert also appeals the denial of a preliminary
injunction or temporary restraining order enjoining
the State Bar from suspending her law license under
11 U.S.C. §§ 525(a) and 105. Section 105 is not a
substantive grant of authority but empowers the
bankruptcy court to “issue any order, process, or
judgment that is necessary or appropriate to carry
out the provisions” of the Code. 11 U.S.C. § 105(a).
Since we affirm the dismissal of her § 525(a) claim,
she has no likelihood of success on the merits and,
thus, injunctive relief is not warranted here. See
Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20,
129 S.Ct. 365, 172 L.Ed.2d 249 (2008).

16a
2019 WL 1594012
Only the Westlaw citation is currently available.
NOT FOR PUBLICATION
United States Bankruptcy Appellate Panel of the
Ninth Circuit.
IN RE: Lenore L. ALBERT-SHERIDAN, dba Law
Offices of Lenore Albert, Debtor.
Lenore L. Albert-Sheridan, Appellant, v.
State Bar of California; Maricruz Farfan; Brandon
Tady; Alex Hackert; Yvette Roland; Paul Bernardino,
Appellees.
BAP No. CC-18-1222-LSF
|
Bk. No. 8:18-bk-10548-ES
|
Adv. No. 8:18-ap-01065-SC
|
Argued and Submitted on February 21, 2019 at
Pasadena, California
|
Filed – April 11, 2019
Appeal from the United States Bankruptcy Court for
the Central District of California, Honorable Scott C.
Clarkson, Bankruptcy Judge, Presiding
Attorneys and Law Firms
Lenore L. Albert-Sheridan argued pro se; Suzanne C.
Grandt argued for Appellees.
Before: LAFFERTY, SPRAKER, and FARIS,
Bankruptcy Judges.
MEMORANDUM* INTRODUCTION
*1 Debtor Lenore Albert-Sheridan appeals the
bankruptcy court's order dismissing her adversary
proceeding against Appellees State Bar of California
and its employees Maricruz Farfan, Brandon Tady,

17a
Alex Hackert, Yvette Roland, and Paul Bernardino.
In that adversary proceeding, Ms. Albert1 sought,
among other things, a declaration that sanctions and
costs ordered paid by the California Supreme Court
as a condition of reinstatement of her law license
were dischargeable. The bankruptcy court did not err
in concluding that sanctions and costs were
nondischargeable under § 523(a)(7).2 The remaining
causes of action pleaded in Ms. Albert's complaint
were reliant on the premise that the entire amount
was dischargeable. Because it found otherwise, the
bankruptcy court did not err in dismissing the
balance of Ms. Albert's complaint.
Accordingly, we AFFIRM.
FACTUAL BACKGROUND
Ms. Albert was an attorney licensed to practice in the
state of California. In 2015 and 2016, the State Bar
of California (“State Bar”) filed Notices of
Disciplinary Charges in State Bar Court alleging
that Ms. Albert had failed to cooperate with State
Bar investigations, disobeyed superior court orders
ordering Ms. Albert to pay discovery sanctions, failed
to perform competent legal services, failed to render
accounts of client funds, and failed to refund
unearned fees.
After a trial, the State Bar Court found Ms. Albert
culpable on all but one count and recommended a
minimum 30-day suspension, after which Ms. Albert
would remain suspended until she provided to the
State Bar proof of payment of four court-ordered
discovery sanctions. The State Bar Court also
recommended that costs be awarded to the State Bar
under
California Business & Professions Code
(“CBP”) § 6086.10.
Ms. Albert appealed the recommendation to the State
Bar Review Department, which found Ms. Albert

18a
culpable on two counts but dismissed the other two
for insufficient evidence. The Review Department
agreed with the recommendation of a 30-day
suspension, proof of payment of three of the four
discovery sanctions totaling $ 5,735 plus interest,
and an award of costs to the State Bar.
Ms. Albert sought review of these determinations
with the Supreme Court of California. On December
13, 2017, that court issued a final order of discipline
reflecting the recommendation of the Review
Department, including suspension. Ms. Albert sought
rehearing, which the supreme court denied on
February 14, 2018.
Ms. Albert filed for chapter 13 relief on February 20,
2018. She then moved the State Bar and the supreme
court to reinstate her license and waive costs based
on her inability to pay. The State Bar, believing the
monetary sanctions were dischargeable in chapter
13, reinstated Ms. Albert's license retroactive to
March 16, 2018.
*2 On June 26, 2018, the bankruptcy court converted
Ms. Albert's chapter 13 case to chapter 7 based on
ineligibility under § 109(e) and Ms. Albert's inability
to fund a confirmable plan. Thereafter, the State Bar
sent a letter to the supreme court explaining that the
case had been converted and requesting that the
court deny Ms. Albert's motion for reinstatement. Ms.
Albert also sent a letter to the supreme court arguing
that the debt remained dischargeable despite
conversion. On July 25, 2018, the supreme court
denied Ms. Albert's motion for reinstatement.
In the meantime, Ms. Albert filed an adversary
proceeding against Appellees. The complaint alleged
five causes of action:
(1) dischargeability of debt under § 523(a)(7); (2)
violation of § 525(a); (3) violation of 42 U.S.C. § 1983;
(4) violation of Rosenthal Act/Fair Debt Collection

19a
Practices Act (“FDCPA”); and (5) unconstitutionality
of CBP §§ 6103, 6086.10, and 6140.7. Ms. Albert
sought: (1) declarations that (a) the debt to the State
Bar is dischargeable; and (b) the statutes under
which she was sanctioned and disciplined are
unconstitutional as applied; (2) injunctive relief
requiring the State Bar to reinstate her license based
on its violations of § 525 and 42 U.S.C. § 1983; and
(3) damages for violations of the Rosenthal
Act/FDCPA. Ms. Albert concurrently filed an
emergency motion for a temporary restraining order,
which the bankruptcy court denied “due to
insufficient grounds stated.”
Appellees moved to dismiss the adversary proceeding
for failure to state a claim. Appellees also asserted
that the bankruptcy court should abstain pursuant to
the Younger abstention and Rooker-Feldman
doctrines. Lastly, they argued that the State Bar was
entitled to Eleventh Amendment immunity and the
individual defendants to judicial immunity. Ms.
Albert filed an opposition, and the State Bar a reply.
In the meantime, Ms. Albert filed a new Application
for TRO and Order to Show Cause Why a
Preliminary Injunction Should Not Issue.
The bankruptcy court heard both matters on August
1, 2018. It denied Ms. Albert's motion for a TRO and
granted the State Bar's motion to dismiss by separate
orders entered August 9, 2018.
Ms. Albert timely appealed both orders.3
JURISDICTION
The bankruptcy court had jurisdiction pursuant to
28 U.S.C. §§ 1334 and 157(b)(2)(A), (I), and (O). We
have jurisdiction under 28 U.S.C. § 158.

20a
ISSUES
Did the bankruptcy court err in dismissing the
adversary proceeding?
Did the bankruptcy court abuse its discretion in
denying Ms. Albert's motion for a TRO and order to
show cause?
STANDARDS OF REVIEW
We review de novo a bankruptcy court's order
granting a motion to dismiss for failure to state a
claim. Movsesian v. Victoria Versicherung AG, 670
F.3d 1067, 1071 (9th Cir. 2012) (en banc); Cedano v.
Aurora Loan Servs., LLC (In re Cedano), 470 B.R.
522, 528 (9th Cir. BAP 2012). Under de novo review,
we look at the matter anew, as if it had not been
heard before, and as if no decision had been rendered
previously, giving no deference to the bankruptcy
court's determinations. Freeman v. DirecTV, Inc.,
457 F.3d 1001, 1004 (9th Cir. 2006).
*3 We review an order denying injunctive relief for
an abuse of discretion. See Pac. Radiation Oncology,
LLC v. Queen's Med. Ctr., 810 F.3d 631, 635 (9th Cir.
2015). To determine whether the bankruptcy court
abused its discretion, we conduct a two-step inquiry:
(1) we review de novo whether the bankruptcy court
“identified the correct legal rule to apply to the relief
requested” and (2) if it did, whether the bankruptcy
court's application of the legal standard was illogical,
implausible, or “without support in inferences that
may be drawn from the facts in the record.” United
States v. Hinkson, 585 F.3d 1247, 1261-62 (9th Cir.
2009) (en banc).
DISCUSSION

21a
In reviewing the bankruptcy court's decision on a
motion to dismiss, we apply the same standards to
Civil Rule 12(b)(6) dismissal motions that all other
federal courts are required to apply. Barnes v. Belice
(In re Belice), 461 B.R. 564, 572–73 (9th Cir. BAP
2011). Under Civil Rule 12(b)(6), made applicable in
adversary proceedings by Rule 7012, we may dismiss
a complaint for “failure to state a claim upon which
relief can be granted.” To survive a Civil Rule
12(b)(6) dismissal motion, a complaint must present
cognizable legal theories and sufficient factual
allegations to support those theories. See Johnson v.
Riverside Healthcare Sys., LP, 534 F.3d 1116, 1121–
22 (9th Cir. 2008). As the Supreme Court has
explained:
a complaint must contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.... A claim has facial plausibility
when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged....
Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice. Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(citations and internal quotation marks omitted). In
reviewing the sufficiency of a complaint under Civil
Rule 12(b)(6), we must accept as true all facts alleged
in the complaint and draw all reasonable inferences
in favor of the plaintiff. See Newcal Indus., Inc. v.
Ikon Office Sols., 513 F.3d 1038, 1043 n.2 (9th Cir.
2008). However, we do not need to accept as true
conclusory allegations or legal characterizations cast
in the form of factual allegations. See Bell Atl. Corp.
v. Twombly, 550 U.S. 544, 555–56 (2007).
We may use judicially noticed facts to establish that
a complaint does not state a claim for relief. Skilstaf,
Inc. v. CVS Caremark Corp., 669 F.3d 1005, 1016 n.9
(9th Cir. 2012).

22a
A.
The bankruptcy court did not err in granting
Appellees' motion to dismiss. The California Supreme
Court ordered Ms. Albert to pay, as a condition to her
license reinstatement: (1) costs of $ 18,714 incurred
by the State Bar in prosecuting Ms. Albert's
misconduct pursuant to CBP § 6086.10(b)(3); and (2)
unpaid discovery sanctions ordered by the superior
court in the amount of $ 5,738 plus interest, payable
to 10675 Orange Park Blvd LLC. The bankruptcy
court found that both of these awards were
nondischargeable under § 523(a)(7).
1.
The bankruptcy court did not err in dismissing
the first cause of action for a declaration of
dischargeability. Section 523(a)(7)(A) provides that a
discharge under § 727 does not discharge an
individual from a debt “to the extent such debt is for
a fine, penalty, or forfeiture payable to and for the
benefit of a governmental unit, and is not
compensation for actual pecuniary loss ....” There are
three requirements for a debt to be excepted from
discharge under § 523(a)(7): (1) the debt must be for a
fine, penalty or forfeiture; (2) the debt must be
payable to and for the benefit of a governmental unit;
and (3) the debt cannot constitute compensation for
actual pecuniary loss. Searcy v. Ada Cty. Prosecuting
Attorney's Office (In re Searcy), 463B.R. 888, 891
(9th Cir. BAP 2012), aff'd, 561 F. App'x 644 (9th Cir.
2014).4 “Although the question of whether a debt is a
‘fine, penalty or forfeiture’ for purposes of § 523(a)(7)
is a question of federal law, we look to state law to
determine whether the subject debt is such an
obligation.” Id. at 892 (citations omitted). *4 The
Supreme Court has held that criminal restitution
ordered to be paid to the State of Connecticut as a
condition of probation in state criminal proceedings
was nondischargeable under § 523(a)(7). Kelly v.
Robinson, 479 U.S. 36 (1986). In Kelly, the defendant
pleaded guilty to larceny for wrongful receipt of

23a
welfare benefits. The state court conditioned the
defendant's probation on making restitution to the
State of Connecticut Office of Adult Probation. In her
subsequent chapter 7 filing, the defendant sought a
declaration of nondischargeability of the restitution.
The
bankruptcy
court
found
the
debt
nondischargeable, the district court affirmed, and the
Second Circuit Court of Appeals reversed.
The Supreme Court reversed the court of appeals,
holding that despite the fact that the restitution at
issue was facially for the benefit of the victim, it fell
within the rubric of a fine or penalty under §
523(a)(7). This was because: (1) the victim has no
control over the amount of restitution awarded or the
decision to award restitution; and (2) the decision to
impose restitution does not turn on the victim's
injury but on the penal goals of the state and the
situation of the defendant.
Id. at 52. Because
criminal proceedings focus on the State's interests in
rehabilitation and punishment, rather than the
victim's desire for compensation, we conclude that
restitution orders imposed in such proceedings
operate “for the benefit of” the State. Similarly, they
are not assessed “for ... compensation” of the victim.
The sentence following a criminal conviction
necessarily considers the penal and rehabilitative
interests of the State. Those interests are sufficient
to place restitution orders within the meaning of §
523(a)(7)....” Id. at 53. The Court's broad holding was
that “§ 523(a)(7) preserves from discharge any
condition a state criminal court imposes as part of a
criminal sentence.” Id. at 50.
Under Kelly, then, notwithstanding the statutory
language (“payable to and for the benefit of a
governmental
unit”),
the
determination
of
nondischargeability turns on the purpose of the
restitution award rather than the ultimate recipient
of the funds. See id. at 52-53. Where the purpose of
the restitution is to further a governmental interest

24a
in rehabilitation and punishment, the ultimate payee
of the restitution is not determinative of
dischargeability. Id.
Courts in this circuit have applied Kelly's holding to
criminal restitution debts. See, e.g., Armstrong v.
Kaplon (In re Armstrong), 677 F. App'x 434 (9th Cir.
2017); Steiger v. Clark Cty. (In re Steiger), 159 B.R.
907 (9th Cir. BAP 1993). Additionally, this Panel has
held that attorney's fees assessed against an
incarcerated debtor, payable to a county district
attorney as a penalty for pursuing frivolous claims,
qualified as a fine, penalty or forfeiture under §
523(a)(7). In re Searcy, 463 B.R. at 893.
Further, as discussed below, courts in the Ninth
Circuit have applied Kelly's holding to restitution
ordered in attorney disciplinary proceedings as a
condition of license reinstatement under under CBP
§ 6086.10 (costs payable to the State Bar) and CBP
§ 6140.5(c)5 (reimbursement to Client Security
Fund). See State Bar of Cal. v. Findley (In re
Findley), 593 F.3d 1048 (9th Cir. 2010); In re
Phillips, No. CV 09-2138 AHM, 2010 WL 4916633
(C.D. Cal. Dec. 1, 2010).
*5 In contrast, in Scheer v. State Bar of California,
819 F.3d 1206 (9th Cir. 2016), the court of appeals
held dischargeable under § 523(a)(7) a refund of
client fees ordered paid by the State Bar Court (and
affirmed by the California Supreme Court) as a
condition of an attorney's reinstatement of active
enrollment status. Id. at 1208-09. The refund was
ordered by an arbitrator who found that the debtor
had competently performed services and had done
nothing willful or malicious, but California law
required her to return the funds. The court of appeals
found the debt dischargeable because it was not
assessed for disciplinary
reasons. Id. at 1211.

25a
In all of these cases, dischargeability turned on the
punitive nature of the fine or penalty at issue.
a.
Under Findley, the cost reimbursement
ordered paid by the California Supreme Court
pursuant to CBP § 6086.10 is nondischargeable
under § 523(a)(7).
The California Supreme Court ordered Ms. Albert to
pay costs pursuant to CBP § 6086.10(a), which
provides:
Any order imposing a public reproval on a licensee of
the State Bar shall include a direction that the
licensee shall pay costs. In any order imposing
discipline, or accepting a resignation with a
disciplinary matter pending, the Supreme Court
shall include a direction that the licensee shall pay
costs. An order pursuant to this subdivision is
enforceable both as provided in Section 6140.7 and as
a money judgment.
In Findley, the Ninth Circuit Court of Appeals
considered the identical statute, CBP § 6086.10(a),
and determined that costs imposed under it were
nondischargeable under § 523(a)(7). 593 F.3d at
1054. The debtor in Findley was an attorney who was
found to have violated the California Rules of
Professional Conduct and the California Business &
Professions Code in dealings with a client and was
suspended from practice for one year. The supreme
court adopted the State Bar's assessment of fees
under CBP § 6086.10(a) to cover the cost of the
disciplinary proceedings. While the disciplinary
proceedings were pending, Findley filed a chapter 7
case and received a discharge. He then declined to
pay the disciplinary cost award and sought
reinstatement.
In the State Bar's adversary proceeding to determine
the dischargeability of the cost award, the

26a
bankruptcy court ruled that the award was
nondischargeable under § 523(a)(7). This Panel
reversed, relying on State Bar of California v.
Taggart (In re Taggart), 249 F.3d 987 (9th Cir. 2001),
in which the Ninth Circuit held that costs assessed
under the prior version of CBP § 6086.10 were
dischargeable. On appeal to the Ninth Circuit, the
court of appeals noted that after Taggart was
decided, the California legislature had amended CBP
§ 6086.10 by adding subsection (e), which provides:
In addition to other monetary sanctions as may be
ordered by the Supreme Court pursuant to Section
6086.13, costs imposed pursuant to this section are
penalties, payable to and for the benefit of the State
Bar of California, a public corporation created
pursuant to Article VI of the California Constitution,
to promote rehabilitation and to protect the public.
This subdivision is declaratory of existing law.
The Circuit cited the legislative history of the
amendment, which made clear that its purpose was
to clarify that orders to pay disciplinary costs were
nondischargeable penalties imposed on California
lawyers for professional misconduct. In re Findley,
593 F.3d at 1053. The Circuit held that the
amendment was “sufficient to render attorney
discipline costs imposed by the California State Bar
Court non-dischargeable in bankruptcy pursuant to
11 U.S.C. § 523(a)(7).” Id. at 1054.
*6 Accordingly, the bankruptcy court did not err in
concluding that Findley mandated the conclusion
that the costs assessed pursuant to CBP § 6086.10
are nondischargeable.
Ms. Albert contends that Findley's conclusion that
the California legislature amended the statute in
response to In re Findley was wrong, and that in any
event the State of California did not have the power

27a
to legislate around federal law, citing Perez v.
Campbell, 402 U.S. 637, 652 (1971) (holding that
state laws that frustrate the full effectiveness of
federal law are rendered invalid by the Supremacy
Clause). However, the bankruptcy court–and this
Panel–are bound to follow Ninth Circuit precedent
unless that precedent is overturned by the Supreme
Court. Deitz v. Ford (In re Deitz), 469 B.R. 11, 22
(9th Cir. BAP 2012) (citing
United States v.
Martinez-Rodriguez, 472 F.3d 1087, 1093 (9th Cir.
2007) ). Because Findley controls the outcome here,
we need not address Ms. Albert's other arguments
regarding the cost award.6
The bankruptcy court did not err in ruling that the
costs ordered by the California Supreme Court to be
paid to the State Bar under CBP § 6086.10 as a
condition of Ms. Albert's license reinstatement are
nondischargeable.
b.
The bankruptcy court did not err in concluding
that the discovery sanctions ordered to be paid by the
California Supreme Court were nondischargeable.
The California Supreme Court also ordered Ms.
Albert to pay to the affected parties the discovery
sanctions
ordered
by
the
superior
court.
Alternatively, it ordered Ms. Albert to reimburse the
Client Security Fund to the extent of any payment
from that fund to the payees.
The discovery sanctions were imposed under
California Civil Procedure Code § 2023.030, which
provides in relevant part:
(a)
The court may impose a monetary sanction
ordering that one engaging in the misuse of the
discovery process, or any attorney advising that
conduct, or both pay the reasonable expenses,
including attorney's fees, incurred by anyone as a

28a
result of that conduct. The court may also impose
this sanction on one unsuccessfully asserting that
another has engaged in the misuse of the discovery
process, or on any attorney who advised that
assertion, or on both. If a monetary sanction is
authorized by any provision of this title, the court
shall impose that sanction unless it finds that the
one subject to the sanction acted with substantial
justification or that other circumstances make the
imposition of the sanction unjust.
California courts have held that discovery sanctions
awarded under this statute are not intended to be
punitive, but “to prevent abuse of the discovery
process and correct the problem presented.” Parker
v. Wolters Kluwer U.S., Inc., 149 Cal. App. 4th 285,
301 (2007). See also Doppes v. Bentley Motors, Inc.,
174 Cal. App. 4th 967, 992 (2009) (“The trial court
cannot impose sanctions for misuse of the discovery
process
as
a
punishment.”).
Despite
this
characterization, Kelly and its progeny support the
conclusion that once the discovery sanctions were
ordered paid by the supreme court as part of a
disciplinary proceeding, they were transformed into a
primarily
punitive
sanction
that
was
nondischargeable under § 523(a)(7), despite the fact
that the sanctions are payable to the affected parties
rather than the State Bar.
*7 The California Supreme Court has held that
restitution ordered to be paid to the Client Security
Fund as part of an attorney disciplinary proceeding
would be nondischargeable in bankruptcy despite the
fact that it had a compensatory effect. The court
reasoned that
[r]estitution imposed as a condition of probation
serves the state interest of rehabilitating culpable
attorneys (and protecting the public) by forcing the
attorney to “confront, in concrete terms, the harm his
actions have caused.” Such restitution--especially

29a
when, as here, it is made payable to the State Bar
Client Security Fund--is clearly for the benefit of the
public at large, not the underlying victim in this case
(who, we note, has already been compensated by the
State Bar Client Security Fund). Because such
restitution fundamentally serves the goal of
rehabilitation, it is not merely compensation to the
government for “actual pecuniary loss.” Brookman v.
State Bar, 46 Cal. 3d 1004, 1009 (1988) (quoting
Kelly, 479 U.S. at 49). See also In re Phillips, 2010
WL 4916633, at *5 (holding that debt to State Bar
consisting of attorney's obligation under CBP §
6140.5(c) to reimburse the Client Security Fund was
excepted from discharge under § 532(a)(7) ).
Based on these authorities, regardless of whether
Ms. Albert was required to reimburse the third
parties or the Client Security Fund, the bankruptcy
court did not err in concluding that the discovery
sanctions ordered to be paid as a condition of
reinstatement
of
her
law
license
were
nondischargeable under § 523(a)(7). At that point,
the purpose of the payment of the discovery sanctions
was punitive and rehabilitative, and served the
State's interest in regulating attorneys; it thus
passed muster under Kelly. See In re Phillips, 2010
WL 4916633, at *4 (noting that the Supreme Court's
focus in Kelly was on the governmental interest and
purpose in imposing a fine or penalty, not on the
ultimate destination of the money).7
*8 Ms. Albert argues on appeal that the discovery
sanctions orders themselves were a “legal nullity”
because the request for sanctions did not comply with
California Civil Procedure Code § 2023.040, which
requires the notice of motion to include the names of
all “persons, parties or attorneys” to be sanctioned,
and her name was not listed.8 Ms. Albert did not
present this argument to the bankruptcy court. Thus,
we need not consider it. See O'Rourke v. Seaboard
Surety Co. (In re E.R. Fegert, Inc.), 887 F.2d 955, 957

30a
(9th Cir. 1989).9
2.
The bankruptcy court did not err in dismissing
Ms. Albert's cause of action under § 525. Ms. Albert
alleged in her complaint that the State Bar was in
violation of § 525 because it refused to reinstate her
license until she paid the costs and sanctions as
ordered by the supreme court. Section 525 provides
in relevant part:
a governmental unit may not deny, revoke, suspend,
or refuse to renew a license, permit, charter,
franchise, or other similar grant to, condition such a
grant to, discriminate with respect to such a grant
against, deny employment to, terminate the
employment of, or discriminate with respect to
employment against, a person that is or has been a
debtor under this title or a bankrupt or a debtor
under the Bankruptcy Act, or another person with
whom such bankrupt or debtor has been associated,
solely because such bankrupt or debtor is or has been
a debtor under this title or a bankrupt or debtor
under the Bankruptcy Act, has been insolvent before
the commencement of the case under this title, or
during the case but before the debtor is granted or
denied a discharge, or has not paid a debt that is
dischargeable in the case under this title or that was
discharged under the Bankruptcy Act.
The bankruptcy court dismissed this claim based on
its conclusion that the costs and discovery sanctions
were nondischargeable. Because the bankruptcy
court did not err in finding those debts
nondischargeable, it did not err in dismissing the §
525 claim, as it is premised entirely on the debt at
issue being dischargeable.
3.
The bankruptcy court did not err in dismissing
Ms. Albert's 42 U.S.C. § 1983 claim. A plaintiff must
allege two elements to state a cause of action under

31a
42 U.S.C. § 1983: (1) that some person has deprived
him of a federal right; and (2) that the person who
has deprived him of that right acted under color of
state or territorial law.
Gomez v. Toledo, 446 U.S. 635, 640 (1980).
Here, Ms. Albert alleged that the individual
defendants, acting under color of law, had violated
her constitutional rights under the First, Fourth,
Fifth, and Fourteenth Amendments. She requested
“injunctive relief” and damages against those
defendants. The acts complained of appear to be the
State Bar's failure to explain why she was to be
suspended effective February 14, 2018, by failing to
give notice of the suspension, and by “snatching” her
law license while she was in bankruptcy. She alleged
that her suspension thwarted her attempt to run for
Orange County District Attorney and disqualified her
from representing a client in federal court.
*9 The bankruptcy court dismissed this claim on
grounds that the individual defendants had absolute
immunity and that the cause of action was based
upon the presumption that the costs and sanctions
were dischargeable.
Ms. Albert points out that the State Bar filed a proof
of claim, which resulted in a waiver of sovereign
immunity. But the 42 U.S.C. § 1983 cause of action
was brought against the individual defendants only.
As to those defendants, the bankruptcy court did not
err in ruling that they were entitled to immunity.
State Bar employees are entitled to absolute quasijudicial immunity under the Civil Rights Act for acts
performed in their official capacities. See Greene v.
Zank, 158 Cal. App. 3d 497, 508-09 (1984). Ms. Albert
argues that Appellee Maricruz Farfan did not
perform acts of a judicial nature because she was in
charge of probation. But under California law,
probation officers performing their official duties of
monitoring probation are performing quasi-judicial

32a
functions and are entitled to immunity. Demoran v.
Witt, 781 F.2d 155, 158 (9th Cir. 1985); Burkes v.
Callion, 433 F.2d 318, 319 (9th Cir. 1970).
In any event, conduct by the State Bar and its agents
cannot constitute a deprivation of any federally
protected rights. See, e.g., Margulis v. State Bar of
Cal., 845 F.2d 215, 216-17 (9th Cir. 1988); Giannini
v. Comm. of Bar Examiners, 847 F.2d 1434, 1435 (9th
Cir. 1988); Chaney v. State Bar of Cal., 386 F.2d
962, 966 (9th Cir. 1967). Finally, because this cause
of action was premised upon the dischargeability of
the underlying debt, as a matter of law the complaint
does not state a claim for relief under 42 U.S.C. §
1983. The bankruptcy court did not err in dismissing
this cause of action.
4.
The bankruptcy court did not err in dismissing
Ms. Albert's cause of action for violations of the
Rosenthal Act/ FDCPA.
The bankruptcy court correctly found that the
activities of the State Bar did not fall within the
scope of either California's Rosenthal Act or the
federal FDCPA and dismissed the cause of action on
that ground.
This cause of action depends on the premise that the
State Bar is acting as a debt collector under federal
and state fair debt collection statutes. A debt
collector is defined under the FDCPA as “any person
who uses any instrumentality of interstate commerce
or the mails in any business the principal purpose of
which is the collection of any debts, or who regularly
collects or attempts to collect, directly or indirectly,
debts owed or due or asserted to be owed or due
another.” 15 U.S.C. § 1692a(6). The definition under
the Rosenthal Act is similar, but specifically excludes
attorneys. Cal. Civ. Code § 1788.2(c).
Attorney disciplinary proceedings are not designed or

33a
intended to be debt collection mechanisms for private
parties, even where attorneys are ordered to pay
money. See Bach v. State Bar, 52 Cal. 3d 1201, 1207
(1991) (in rejecting the argument that the State Bar
and the California Supreme Court lacked jurisdiction
to impose discipline in the form of suspension
conditioned upon restitution to a former client, the
court noted that in exercising their power to
discipline attorneys, the State Bar and the California
Supreme Court further the goals of protecting the
public, preserving confidence in the legal profession,
and the rehabilitation of errant attorneys; they do
not “sit in disciplinary matters as a collection board
for clients aggrieved over fee matters.”). Ms. Albert
has not cited any authority even suggesting that the
State Bar or the individual defendants qualify as
debt collectors under either the federal or state
statutes.
*10 The bankruptcy court did not err in dismissing
this cause of action.
5.
The bankruptcy court did not err in dismissing
Ms. Albert's cause of action for a declaration that
CBP
§§ 6086.10, 6103, and 6047 are
unconstitutional.
The
bankruptcy
court
observed
that
the
constitutional challenges were “indecipherable.” We
agree. The allegations supporting this cause of action
are rambling and seem to be based solely on the fact
that Ms. Albert was disciplined and her various
complaints about the process and result. Nothing in
the allegations, even if taken as true, states a claim
that the statutes are unconstitutional, even as
applied. In her brief, Ms. Albert clarifies this cause of
action by alleging that the statutes in question are
being used to condition reinstatement of her license
on payment of the costs and sanctions and thus are
in violation of § 525 and Perez. Because the

34a
bankruptcy court correctly found no violation of §
525, it did not err in dismissing this cause of action.
B.
We need not reach the issue of whether the
bankruptcy court abused its discretion in denying
Ms. Albert's application for a TRO. Because we are
affirming the dismissal of Ms. Albert's complaint, we
need not address the bankruptcy court's denial of her
application for a TRO.
CONCLUSION
The bankruptcy court did not err in dismissing Ms.
Albert's complaint. Even taking the allegations of her
complaint as true, as a matter of law she did not
state any plausible claims for relief. We AFFIRM.
All Citations
Footnotes
*
This disposition is not appropriate for
publication. Although it may be cited for whatever
persuasive value it may have, see Fed. R. App. P.
32.1, it has no precedential value, see 9th Cir. BAP
Rule 8024-1.
1
Although Debtor's last name is listed on her
bankruptcy petition as “Albert-Sheridan,” she refers
to herself as “Lenore Albert” and “Ms. Albert” in her
papers. We thus refer to her as “Ms. Albert”
throughout this Memorandum.
2
Unless specified otherwise, all chapter and
section references are to the Bankruptcy Code, 11
U.S.C. §§ 101-1532, all “Rule” references are to the
Federal Rules of Bankruptcy Procedure, and all
“Civil Rule” references are to the Federal Rules of
Civil Procedure.
3
On the same date Ms. Albert filed her notice of

35a
appeal, she filed an objection to the State Bar's
proposed order and the bankruptcy court's order
denying her application for a TRO. The bankruptcy
court treated the objection as a motion to alter or
amend under Civil Rule 59(e), incorporated in
bankruptcy via Rule 9023, and denied it by order
entered December 14, 2018. Ms. Albert did not
separately appeal that order, nor did she amend her
notice of appeal in this case.
4
In Searcy, although the Panel correctly quoted
the statute, in its recitation of the requirements, it
erroneously stated that the debt must be payable to
or for the benefit of a governmental unit, when the
statute is in the conjunctive.
5
That statute provides, in relevant part: “Any
attorney whose actions have caused the payment of
funds to a claimant from the Client Security Fund
shall reimburse the fund for all moneys paid out as a
result of his or her conduct with interest, in addition
to payment of the assessment for the procedural costs
of processing the claim, as a condition of continued
practice....”
6
Ms. Albert notes that the cost form submitted
by the State Bar states that it is for compensation for
the State Bar's costs in prosecuting the Notices of
Disciplinary Charges, arguing that this supports her
position that such an award is purely compensatory.
In light of Findley, we do not find this argument
persuasive.
7
We note that Kelly seems to have been
expanded to the point where the requirement that
the fine or penalty must be payable “to and for the
benefit of a governmental unit” has been read out of
the statute. See Kelly, 479 U.S. at 56 n.3 (Marshall,
J., dissenting) (noting that the majority did not need
to consider whether the payee was a governmental
unit because the ultimate beneficiary of the
restitution was the State of Connecticut, and
pointing out that to hold all criminal restitution
nondischargeable, including where the victim is a
private individual, would read the “payable to and for

36a
the benefit of a governmental unit” requirement out
of the statute). We also note, however, that Congress
has amended the Bankruptcy Code several times in
the thirty-three years since Kelly was decided;
Congress could have overruled Kelly, but it has not
done so. Further, we must follow Kelly and its Ninth
Circuit progeny in any event. Appellees cite three
cases to support their contention that the payee of a
fine does not matter so long as the fine is sufficiently
penal and the state has sufficient interests: In re
Armstrong, 677 F. App'x 434; Hansbrough v. Birdsell
(In re Hercules Enters., Inc.), 387 F.3d 1024 (9th Cir.
2004); and In re Steiger, 159 B.R. 907. Although we
conclude that the bankruptcy court did not err in
holding the discovery sanctions nondischargeable
under § 523(a)(7), we do not rely on these cases. Both
Armstrong and Steiger involved criminal restitution,
which the respective reviewing courts held was
nondischargeable under the Supreme Court's broad
holding in Kelly. In re Armstrong, 677 F. App'x at
436; In re Steiger, 159 B.R. at 912. The Armstrong
opinion did not state or analyze whether the
restitution was payable to a governmental unit. In
Steiger, although the restitution was payable to an
individual, the BAP relied on Kelly's broad holding
that
§ 523(a)(7) preserves from discharge any
condition a state criminal court imposes as part of a
criminal sentence. 159 B.R. at 911. In Hercules, the
Circuit held that the bankruptcy court erred in
ordering that a contempt sanction imposed on a nonparty would be nondischargeable in any subsequent
personal bankruptcy filed by the non-party. But in
dicta, the Circuit noted that under § 523(a)(7), “civil
contempt sanctions are generally non-dischargeable
where, as here, they are imposed to uphold the
dignity and authority of the court.” In re Hercules
Enters., 387 F.3d at 1029. The Circuit did not hold
that the debt at issue (which was payable to the
chapter 7 trustee) would be nondischargeable, nor
did it analyze whether the fact that the trustee was
the payee made a difference.

37a
8
That statute provides, in relevant part, “[a]
request for a sanction shall, in the notice of motion,
identify every person, party, and attorney against
whom the sanction is sought, and specify the type of
sanction sought.”
9
In Ms. Albert's opposition to the motion to
dismiss filed in the bankruptcy court, she argued
that the discovery sanction order was void because
the commissioner who ordered the sanctions later
recused himself “due to bias.” She did not pursue this
argument at the hearing on the motion, however.
Additionally, Ms. Albert did not raise this issue with
the California Supreme Court.

38a
UNITED STATES BANKRUPTCY COURT
CENTRAL DISTRICT OF CALIFORNIA
Santa Ana Division
Case No. 8:18-bk-10548-ES
Lenore Luan Albert-Sheridan
Debtor.
Lenore Luan Albert-Sheridan d/b/a Law Offices of
Lenore Albert,
Plaintiff,
v.
Maricruz Farfan, Brandon Tady, Paul Bernardino,
Hon. Yvette Roland, State
Bar of California,
Defendants.
Chapter 7
Adversary No. 8:18-ap-01065-SC
ORDER
Hearing:
Date: August 1, 2018
Time: 11:00 a.m. Courtroom 5C
411 W. Fourth Street Santa Ana, CA 92701
On August 1, 2018, the Court held a hearing
on Debtor's Ex Parte Application for T.R.O. and
Order to Show Cause Why a Preliminary Injunction
Should Not Issue filed on July 24, 2018 [Dk. 29] (the

39a
“Application”). Appearances are as noted on the
record.
The issue before the Court is whether Lenore
Luann Albert-Sheridan’s (“Debtor”) ex parte
application for a temporary restraining order should
be granted. After consideration of oral argument of
the parties at the hearing, the Application and all
papers filed in connection therewith, and for the
reasons stated on the record and more fully set forth
below, the Court hereby DENIES Debtor’s
Application because Debtor failed to meet her burden
in demonstrating that (1) she is “likely to succeed on
the merits,” (2) she is “likely to suffer irreparable
harm in the absence of preliminary relief,” (3) “the
balance of equities tips in [her] favor,” and (4) “an
injunction is in the public interest.” See Winter v.
NRDC, Inc., 555 U.S. 7, 20 (2008).
I.

Statement of Facts
Debtor filed a similar motion before Judge
Smith on April 6, 2018. [Dk. 3]1. The Court denied
Debtor’s motion on April 9, 2018, without a hearing,
due to insufficient grounds stated. [Dk. 5]. A
comparison of the original motion [Dk. 3] to the
Application [Dk. 29], reveals the following additions.
Additions to the facts section of the
Application:
(1)
The State Bar of California (“State Bar”)
found that Albert owed non-government third parties
$5000 due to unlawful detainer civil discovery
sanction awards (attorney fees). [Application 5:4-8].
(2)
On June 28, 2018, State Bar suspended
Debtor’s license following the conversion of Debtor’s
case to a Chapter 7 case. [Application, 5:1-3].

40a
(3)
Debtor lost her contingency fee award
on a civil rights case because her license was
suspended. [Application, 5:20-23].
(4)
Debtor may lose her contingency fee on
another case, Noble v. Wells Fargo. [Application,
5:24-27].
(5)
Debtor lost her clients and monthly
income. She also has no money to buy necessities.
[Application., 5:26-27 – 6:1-3]. Additions to the legal
argument section of the Application:
(1)
The Ninth Circuit uses the Winters
sliding scale test to determine if a TRO should be
issued. [Application, 9:2-5].
(2)
Under Emmert v. Taggart (In re
Taggart), 548 B.R. 275 (B.A.P. 9th Cir. 2016), the
court should conclude that Debtor is likely to win the
case because the attorney fees owed to private third
parties is dischargeable under 11 U.S.C. § 523(a)(7).
The debt to the State Bar is compensatory and
dischargeable under 11 U.S.C. § 523(a)(7) because it
includes court reporter and investigation fees.
[Application, 10:15-21].
II.
Preliminary Injunction Standard
A party may obtain a preliminary injunction by
demonstrating that (1) it is “likely to succeed on the
merits,” (2) it is “likely to suffer irreparable harm in
the absence of preliminary relief,” (3) “the balance of
equities tips in [its] favor,” and (4) “an injunction
is in the public interest.” Winter v. NRDC, Inc., 555
U.S. 7, 20 (2008).
“A party seeking a preliminary injunction
must demonstrate either a combination of probable
success on the merits and the possibility of

41a
irreparable injury, or that serious questions are
raised and the balance of hardships tips in its favor.”
Hunt v. National Broadcasting Co., 872 F.2d 289, 293
(9th Cir. 1989). "These two formulations represent
two points on a sliding scale in which the required
degree of irreparable harm increases as the
probability of success decreases." United States v.
Odessa Union Warehouse Co-op, 833 F.2d 172, 174
(9th Cir. 1987).
III.

Findings and Analysis
a)
Likelihood of Success on the Merits
11 U.S.C. § 523(a)(7) provides that a debt is
non-dischargeable in bankruptcy “to the extent such
debt is for a fine, penalty, or forfeiture payable to and
for the benefit of a governmental unit, and is not
compensation for actual pecuniary loss.” Scheer v.
State Bar (In re Scheer), 819 F.3d 1206, 1209 (9th
Cir. 2016). In Scheer, the State Bar suspended the
debtor’s law license because the debtor had failed to
pay an arbitration award fee to her former client and
the State Bar. The court found that the compensatory
debt owed to the State Bar was dischargeable and did
not fall under § 523(a)(7). See In re Scheer, 819 F.3d
1206, 1211-1212 (9th Cir. 2016). However, courts
have found debts arising from attorney discipline
costs imposed by the California State Bar Court are
non-dischargeable in bankruptcy pursuant to §
523(a)(7). See State Bar v. Findley (In re Findley),
593 F.3d 1048, 1054 (9th Cir. 2010).
Here, Debtor owes $5000 in attorney fees
because of a civil discovery sanction. [Application,
5:4-8]. If the attorney fees are considered a
compensatory debt, then the debt is dischargeable.

42a
See In re Scheer, 819 F.3d at 1211-1212. If the
attorney fees are considered a disciplinary debt, then
the debt is non-dischargeable. See In re Findley, 593
F.3d at 1054. This Court finds that the attorney fees
are a disciplinary debt because the debt arises from
discovery sanctions relating to a motion to compel; it
does not appear to be compensation for any
particular pecuniary loss. Debtor alleges that the
State Bar wrongly ordered her to pay attorney fees,
which should have been paid by her client.
[Application, 5:4-8]. However, Debtor fails to meet
her burden in proving this allegation. Therefore, the
Court finds that the attorney fees are disciplinary in
nature and are non-dischargeable under § 523(a)(7).
Debtor also owes $18,714 to the State Bar.
[Application, 6:21-23]. Debtor fails to provide
evidence of the State Bar’s notice of fees and charges.
Without such information, the Court cannot
determine if the debt is compensatory or disciplinary
in nature, and thus cannot weigh whether it is likely
to be dischargeable. Overall, the Court finds that
Debtor has failed to meet her burden of proof and
that the likelihood of success on the merits is low.
b)
Likelihood of Suffering Immediate
Irreparable Injury in the Absence of Preliminary
Relief Debtor fails to meet her burden in showing
that “imminent irreparable injury” will likely occur
in the absence of the issuance of a temporary
restraining order. Debtor references Noble v. Wells
Fargo, a federal civil rights case, [Application, 5:2427], and argues that because her license to practice
law is suspended, she is not able to represent existing
clients and earn a living. [Application, 12:19-22].

43a
However, Debtor fails to show the immediacy of any
irreparable harm.
Debtor also argues that the continued
shutdown of the law office operations will
significantly decrease the value of the estate.
[Application, 13:5-8]. This argument fails because
upon conversion from Chapter 13 to Chapter 7,
Debtor’s post-petition income ceased to be property of
the estate under 11 U.S.C. § 541(a)(6). See Wu v.
Markosian (In re Markosian), 506 B.R. 273, 276-77
(B.A.P. 9th Cir. 2014). The Court finds that Debtor
failed to satisfy the burden of proof required to show
that Debtor will likely suffer immediate irreparable
injury in the absence of preliminary relief.
c)
Balance of Equities Tips in her Favor
Debtor argues that a preliminary injunction
would protect the going value of the estate.
[Application, 13:21-22]. Debtor fails to meet her
burden of proof in showing that the balance of
equities tips in her favor for this reason because the
estate is not impacted by Debtor’s ability to earn
post-petition income. See In re Markosian, 506 B.R.
at 276-77.
d)
Public Interest
The public interest is involved when “the
impact of an injunction reaches beyond the parties,
carrying with it a potential for public consequences.”
Stormans, Inc. v. Selecky, 586 F.3d 1109, 1139 (9th
Cir. 2009). “In considering the public interest, [the
Court] may [also] consider the hardship to all
individuals . . . [and is] not limited to parties . . . .”
Golden Gate Rest. Ass'n v. City of San Francisco, 512
F.3d 1112, 1126 (9th Cir. 2008).

44a
Debtor alleges that the State Bar Court
violated the Fourteenth Amendment because the
State Bar suspend Debtor’s license without notifying
Debtor. [Application, 16:8-12]. Debtor failed to
provide evidence in support of her allegations. Debtor
also fails to show that the impact of an injunction
requiring the State Bar to reinstate her license would
extend beyond her. Additionally, since Debtor’s case
has been converted to a Chapter 7 case, Debtor’s
post-petition income is not the property of the estate
and the estate is not impacted by Debtor’s ability to
earn income. See In re Markosian, 506 B.R. at 27677. Therefore, Debtor has failed to show that the
preliminary injunction is in the public interest.
IV.
Conclusion
Accordingly, for the foregoing reasons, the
Application is DENIED.
IT IS SO ORDERED.
IT IS FURTHER ORDERED that this Court has
certified Debtor as indigent and
eligible for waiver of appellate filing fees. 6

Date: August 9, 2018

VANESSA L. HOLTON (111613) General Counsel
ROBERT G. RETANA (148677) Deputy General
Counsel
SUZANNE C. GRANDT (304794)

45a
Assistant General Counsel
TAREN M. FUJIMOTO (296792)
Assistant General Counsel
OFFICE OF GENERAL COUNSEL
THE STATE BAR OF CALIFORNIA
180 Howard Street
San Francisco, CA 94105-1639 Telephone: 415-5382388
Facsimile: 415-538-2321
Email: suzanne.grandt@calbar.ca.gov
CHANGES MADE BY COURT
Attorneys for Defendants Maricruz Farfan, Brandon
Tady, Alex Hackert,
Paul Bernardino, Hon. Yvette Roland, and The State
Bar of California
UNITED STATES BANKRUPTCY COURT
CENTRAL DISTRICT OF CALIFORNIA
SANTA ANA DIVISION
In re LENORE LUANN ALBERT-SHERIDAN
d/b/a LAW OFFICES OF LENORE ALBERT
Debtor.
LENORE LUANN ALBERT-SHERIDAN
d/b/a LAW OFFICES OF LENORE ALBERT,
Plaintiff,
v.
MARICRUZ FARFAN, an individual; BRANDON

46a
TADY, an individual; ALEX
HACKERT, an individual; PAUL BERNARDINO, an
individual; HON. YVETTE
ROLAND, an individual; STATE BAR OF
CALIFORNIA, a public corporation
Defendants.
Case No. SA 8:18-bk-10548-ES
Chapter 13
Adv. Proc. No. 8:18-ap-01065-SC
ORDER GRANTING DEFENDANTS’
MOTION TO DISMISS COMPLAINT
HEARING DATE: August 1, 2018
TIME: 11:00 AM
COURTROOM: 5C – Fifth Floor
JUDGE: Honorable Scott C. Clarkson
On May 7, 2018, Defendants Maricruz Farfan,
Brandon Tady, Alex Hackert, Paul Bernardino, Hon.
Yvette Roland, and The State Bar of California
(“Defendants”) filed a Notice of Motion and Motion to
Dismiss Complaint (the “Motion to Dismiss”) [Dkt.
No. 8]. Debtor/Plaintiff Lenore Luann AlbertSheridan (“Plaintiff”) opposed the Motion to Dismiss.
[Dkt. No. 18].
On August 1, 2018, the court held a hearing on
the Motion to Dismiss. Appearances
were made as noted on the record. For the reasons
stated on the record,
IT IS ORDERED that Defendants’ Motion to Dismiss

47a
is GRANTED.
IT IS FURTHER ORDERED that the Court has
certified Plaintiff as indigent and eligible
or waiver of appellate filing fees.
###
Date: August 9, 2018

48a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
In re: LENORE L. ALBERT-SHERIDAN, Debtor,
LENORE L. ALBERT-SHERIDAN, DBA Law Offices
of Lenore Albert,
Appellant,
v.
STATE BAR OF CALIFORNIA; MARICRUZ
FARFAN; BRANDON TADY; ALEX HACKERT;
YVETTE ROLAND; PAUL BERNARDINO,
Appellees.
No. 19-60023 BAP No. 18-1222
ORDER
Before: PAEZ, CALLAHAN, and BUMATAY, Circuit
Judges.
The panel has unanimously voted to deny
Appellant’s petition for panel rehearing. The full
court has been advised of the petitions for rehearing
en banc, (Dkt. Nos. 35 and 36), and no judge of the
court has requested a vote on it. Fed. R. App. P. 35.
The petition for panel rehearing and rehearing en
banc is therefore DENIED.
FILED JUL 17 2020 MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS Case: 19-60023,
07/17/2020, ID: 11757094, DktEntry: 37, Page 1 of 1

49a
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
In re: LENORE L. ALBERT-SHERIDAN, Debtor,
LENORE L. ALBERT-SHERIDAN, DBA Law Offices
of Lenore Albert,
Appellant,
v.
STATE BAR OF CALIFORNIA; MARICRUZ
FARFAN; BRANDON TADY; ALEX HACKERT;
YVETTE ROLAND; PAUL BERNARDINO,
Appellees.
No. 19-60023 BAP No. 18-1222
ORDER
Before: PAEZ, CALLAHAN, and BUMATAY, Circuit
Judges.
Appellees’ motion to stay the mandate pending
the filing of a Petition for a Writ of Certiorari with
the United States Supreme Court (ECF No. 38) is
GRANTED. Fed. R. App. P. 41(d)(1); see also 9th Cir.
R. App. P. 41–1. The mandate is stayed for 90 days
from the date of this order. See Fed. R. App. P.
41(d)(2).
FILED JUL 29 2020 MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS Case: 19-60023,
07/29/2020, ID: 11770457, DktEntry: 39, Page 1 of 1

50a
Dated: October 15, 2020
Respectfully submitted,
VANESSA L. HOLTON
General Counsel
/S/ SUZANNE C. GRANDT
SUZANNE C. GRANDT
Assistant General Counsel
Counsel of Record
Counsel for Petitioners

